I

" fTt n r\ n yf\ n

w. j«w HiL,

“1.224
No.

FILED
€5F-2 k 2019

In The

Supreme Court Of The United States
Jeremiah F. Manning,
Petitioner,
v.

Lucy J. Kim,
Respondent.
On Petition For A Writ of Certiorari
To The Supreme Court of California

PETITION FOR A WRIT OF CERTIORARI

Jeremiah F. Manning
Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

QUESTIONS PRESENTED
I. The public record shows that Judge
Susan Greenberg of the California
Superior Court of San Mateo County
accepted campaign contributions from
Respondent’s attorneys well in excess of
the statutory limit ($1500) that required
her disqualification and she declined to
recuse herself and failed to disclose this
to Petitioner for over a year thereby
depriving him of the exercise of his
peremptory challenge as provided to
him by California law, and then refused
to recuse herself upon motion, instead
striking Petitioner’s disqualification
motion and later entering judgment on
child custody against Petitioner. The
question presented is whether Judge
Greenberg’s refusal to recuse herself
and failure to timely and accurately
disclose the campaign contributions to
the Petitioner violated the Due Process
and Equal Protection Clauses of the
Fourteenth Amendment.

11

II. The record also shows that Judge
Greenberg accepted campaign
contributions from Respondent’s
attorneys well in excess of the $100 that
under California law required Judge
Greenberg to timely and accurately
disclose them, and that Judge
Greenberg failed to disclose them for
over a year in contravention of said
statute while making ruling after ruling
against Petitioner, including rulings
involving the fundamental
Constitutional rights to an attorney and
cross-examination, and then made an
incomplete, inaccurate and misleading
disclosure after the child custody phase
of trial had been completed and
subsequent to her almost
contemporaneous recusal of herself for
the same reason in a similar matter also
involving child custody. The question
presented is whether Judge Greenberg’s
failure to recuse herself where she had
accepted excessive campaign
contributions and failed to disclose them
as required by law, but did
contemporaneously recuse herself in a
similar matter where both parties were
represented by counsel, violated the
Fourteenth Amendment.

Ill

PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
There are no additional parties to
this case other than those named in the
caption, and neither party is a non­
governmental corporation for which
disclosure is required as specified in
Rule 29.6.

IV

TABLE OF CONTENTS
Page
QUESTIONS
PRESENTED

1

PARTIES TO THE PROCEEDING
AND RULE 29.6
STATEMENT..................................

111

TABLE OF
CONTENTS

IV

TABLE OF
APPENDICES

vi

TABLE OF AUTHORITIES

Vll

OPINION/REVIEW
BELOW...................

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS
INVOLVED....................................... 2
STATEMENT

3

REASONS FOR GRANTING THE
PETITION.......................................

21

V

TABLE OF CONTENTS(continued)
Page
I. JUDGE GREENBERG’S REFUSAL
TO RECUSE HERSELF CONFLICTS
WITH THIS COURT’S DUE PROCESS
AND EQUAL PROTECTION
PRECEDENT........................................... 24
II. THE QUESTION PRESENTED IS
EXCEPTIONALLY IMPORTANT TO
THE PRESERVATION OF PUBLIC
CONFIDENCE IN STATE COURT
SYSTEMS ACROSS THE
NATION.................................................

33

III. VACATING JUDGMENT AND
REMAND IS APPROPRIATE
HERE WHERE THE LOWER
COURT DECISIONS SO CLEARLY
ARE AT ODDS WITH THIS COURT’S
DUE PROCESS AND EQUAL
PROTECTION PRECEDENT.............. 36
CONCLUSION

38

VI

APPENDICES
Page

APPENDIX A: Opinion of the
Court of Appeals for the First
District of California...............

A2

APPENDIX B: Order Denying
Rehearing by the Court of Appeals for
the First District of
A25
California
APPENDIX C: Order of the
California Supreme Court
Denying Petition for
Review....................................

A27

APPENDIX D: Judgment of Judge
Susan Greenberg Entered
September 16, 2016......................... A29
APPENDIX E; Petitioner’s Motion
to Disqualify Judge Susan
Greenberg Dated March 25, 2016. ...A86
APPENDIX F: Petitioner’s
Rehearing Petition to The
California Court of Appeals

A109

Vll

TABLE OF AUTHORITIES
AUTHORITY
Page(s)
CASELAW
Aetna Life Insurance Co. v. Lavoie,
26,27,28
475 U.S. 813 (1986)
Boddie v. Connecticut, 401 U.S. 371
(1971)
28,29
Caperton v. A. T. Massey Coal Co.
556 U.S. 868
3,6,7,22,28
(2009)
Commonwealth Coatings Corp. v.
Cont’l Cas. Co., 393 U.S. 145, 150
(1968)................................................ 5,23
In re Murchison, 349 U.S. 133,
(1955)........................................... 24,25,26
Johnson v. Mississippi,
403 U.S. 212 (1971).....

34

Little v. Streater, 451 U.S. 1
(1981)...................................... 28,29,30,31

Vlll

TABLE OF AUTHORITIES
AUTHORITY
Page(s)
CASELAW(Continued)

Marriage of Stupp & Schilders,
216 CaLApp. Unpub.
LEXIS 8136..................................

16,17

Matthews v. Eldridge, 424 U.S. 319
28,29
(1976)
Mistretta v. United States,
488 U.S. 361 (1989)..........

6,22

M.L.B. v. S.L.J., 519 U.S. 102
(1996).........................................

29,30

Peters v.Kiff, 407 U.S. 493 (1972)....25
Republican Party of Minn,
v. White, 536 U.S. 765 (2002)
Rippo v. Baker, 580 U.S.__
Slip Op. 16-6316
(2017).................. ...................

28

4, 17, 37

IX

TABLE OF AUTHORITIES
AUTHORITY
Page(s)
CASELAW(Continued)
Rogers Lacaze v. Louisiana,
580 U.S._, (2017)..... ...............
Ward v. Village of Monroeville,
409 U.S. 47
(1972)..........................................

.3, 24

Williams v. Pennsylvania,
579 U.S. _ Slip Op. 15-5040
(2016).......................................

4, 28

Withrow v. Larkin, 421 U.S. 35
(1975).............................................

7,12

37

CONSTITUTIONAL PROVISIONS
US. Const, amend. XIV, § 1

2

STATUTES
28 U.S.C. § 1257(a)..........................
California Code of Civil Procedure
§170.1(a)(9)(A)..................................

2

13

X

TABLE OF AUTHORITIES
AUTHORITY
Page(s)

STATUTES(Continued)
California Code of Civil Procedure
§170.1(a)(9)(C)
California Code of Civil Procedure
§170.6

14
15

OTHER AUTHORITY

Broken Hearts: A Rundown Of The
Divorce Capital Of Every State,
USA Today, February 2,
2018................................................... . 7,8
The Big Business of Divorce,
CNBC, July 2,
2012..........................................

8

Sample, James, et ah, The New
Politics of Judicial Elections
15 (2006)................................... .

35

PETITION FOR A WRIT OF
CERTIORARI

Petitioner Jeremiah F. Manning
respectfully submits this petition for a
writ of certiorari to review the judgment
of the Supreme Court of California.
OPINIONS BELOW
The denial of Petitioner’s Petition
for Review by the Supreme Court of
California was ordered on June 26,
2019. Pet. App. A27. The Opinion of
the California Court of Appeals for the
First District dated April 10, 2019 is
available in the Appendix. Pet. App.
A2. The Court of Appeals denied
Petitioner’s Rehearing Petition on April
30,2019. Pet. App. A25. Judge
Greenberg’s September 16, 2016
Judgment is available in the Appendix.
Pet. App. A29. Petitioner includes his
motion to disqualify Judge Greenberg
and his Rehearing Petition to
demonstrate that the Constitutional
issues raised herein were raised below
and for the arguments and information
contained therein. Pet. App. A86 and
A109, respectively.

2

JURISDICTION
The Supreme Court of California
entered its denial of Petitioner’s Petition
for Review on June 26, 2019. The
jurisdiction of this Court is invoked
under 28 U.S.C. § 1257(a).

CONSTITUTIONAL PROVISIONS
INVOLVED
The Fourteenth Amendment to
the U.S. Constitution provides, in
relevant part:
No State shall ... deprive
any person of life, liberty,
or property, without due
process of law; nor deny to
any person within its
jurisdiction
the
equal
protection of the laws.
US. Const, amend. XIV, § 1.

3

STATEMENT
This is a case where the clear law
of California required the judge, Hon.
Susan Greenberg, to recuse herself
because she accepted campaign
contributions from one party’s attorneys
and not the other’s in excess of the
statutory amount that triggered
disqualification. As set forth in
Appendix F, Judge Greenberg sat on
this case all the way to the end,
depriving Petitioner of his state right to
peremptory challenge and eventually
entering judgment on custody issues
against Petitioner. Because she flouted
the clear law, her participation and the
judgment in the case was and
is in absolute conflict with
constitutional due process under the
line of cases from Ward v. Village of
Monroeville, 409 U.S. 47 (1972) to

4

Caperton v. A.T. Massey Coal Co., 556
U.S. 868 (2009) to most recently
Williams v. Pennsylvania, 579 U.S.__
Slip Op. 15-5040 (2016) and Rippo v.
Baker, 580 U.S.__Slip Op. 16-6316
(2017). As the Court put it most
eloquently in Ward: “Petitioner is
entitled to a neutral and detached judge
in the first instance”. Ward at 61-62.
Petitioner was prima facie denied a
neutral and detached judge in the first
instance in this case because Judge
Greenberg took the campaign
contributions from Respondent’s
attorney and they were in excess of the
statutory amount requiring her
disqualification. Because of the
importance of this issue for all
Americans who must be able to trust
the that the judiciary will be neutral in
their cases, Petitioner asks this Court to

5

grant this Writ. And because the
California Supreme Court chose to not
address these fundamental
Constitutional issues, Petitioner also
requests that the judgment be vacated
and the case remanded so that the
California Court considers them.
1. This Court has repeatedly
emphasized that “any tribunal
permitted by law to try cases and
controversies not only must be unbiased
but also must avoid even the
appearance of bias.” Commonwealth
Coatings Corp. v. Cont’l Cas. Co., 393
U.S. 145, 150 (1968). This case has both
the Due Process issue raised above, and
also affords the Court the opportunity to
clarify the circumstances in which a
judge’s refusal to follow State campaign
contribution laws and recuse herself
after accepting and benefiting from

6

campaign contributions from one party
in excess of the statutorily disqualifying
amount, when she did in fact recuse
herself in another similar,
contemporaneous case involving child
custody, creates an “appearance of bias”
that is so significant that constitutional
equal protection requires her recusal or
disqualification. This question is vitally
important to preserving the “reputation
for impartiality and nonpartisanship”—
and, ultimately, the “legitimacy”—“of
the Judicial Branch.” Mistretta v.
United States, 488 U.S. 361, 407.
With regard to Due Process,
Justice Kennedy reiterated the objective
standard that must be used to decide
whether a judge must recuse herself in
Caperton, 556 U.S. 868:
Under our precedents there
are objective standards

7
that require recusal when
“the probability of actual
bias on the part of the
judge or decisionmaker is
too high to be
constitutionally
tolerable.” Withrow v.
Larkin, 421 U.S. 35, 47
(1975).
Caperton, 556 U.S. at 870 (Kennedy, J.,
writing for the majority and holding
that a judge must recuse himself not
only when actual bias has been
demonstrated or when the judge has an
economic interest in the outcome of the
case, but also when "extreme facts"
create a "probability of bias.")
While this is not a case where
there are millions of dollars in campaign
contributions at issue as in Caperton, it
is a case that affects the millions of
Americans that must make their way
through the family law system in each
of our 50 United States. Broken Hearts:

8

A Rundown Of The Divorce Capital Of
Every State, USA Today, February 2,
2018, at
https://www.usatoday.com/story/money/
economy/2018/02/02/broken-heartsrundown-divorce-capital-everystate/1078283001/ (relying on Census
Bureau data to demonstrate that
between 10-20% of Americans in each of
the 50 states are divorced). Additionally,
the divorce and family law “industry”,
including attorneys, family law
consultants, psychologists and related
personnel, processes one million
divorces a year so there are clear
economic implications that make this
case an important one for the Court to
address. The Big Business of Divorce,
CNBC, July 2, 2012 at
https://www.cnbc.com/id/48045774.

9

Americans must be confident that their
family law judges are impartial and
that they will not be biased against one
party because that party did not make a
campaign contribution.
Most important, however, this is
a case where the Judge completely
ignored the clear law on disqualification
and campaign finance disclosure, and
rendered judgment. Her continued
participation in the case created a
situation that denied Petitioner
constitutional due process and equal
protection from the outset.
2. In this case, Judge Greenberg
completely disregarded the clear
California statute on disqualification
when a campaign contribution to her
exceeded $1500. Petitioner’s Appendix,
A8-A9. She also disregarded the clear
California statute concerning campaign

10

contribution disclosure for over a year,
all the while making adverse rulings
against Petitioner, and then when she
finally disclosed her acceptance of and
benefit from campaign contributions
from Respondent’s attorneys, her
disclosure was incomplete, inaccurate
and untimely since it did not occur until
after the conclusion of an eight day
custody phase of trial. Id. Petitioner
respectfully submits to the Court that
this total disregard of state judicial
disqualification and campaign
contribution disclosure law meets the
“extreme facts” standard that creates a
substantial probability of bias.
Although judicial elections and
contributions to elected judges are a
well-established means of selecting a
state judiciary, a judge’s refusal to
follow the clear state law on recusal

11

in a manner that deprives a litigant of
his state right creates a constitutionally
unacceptable appearance of
impropriety. This case affords the
Court an ideal opportunity both to
clarify the circumstances in which
judges must follow state recusal and
disqualification statutes because it is
mandated by constitutional due process
and equal protection, and to restore the
public’s waning confidence in state
judicial systems in the face of the
increasingly significant role of campaign
contributions-to state judicial elections.
The facts of this case are
“extreme facts” of a judge that
completely disregarded the clear law,
and Petitioner respectfully requests that
this Court grant the writ and take
action by vacating judgment and
remanding this case so that the

12

California Supreme Court considers
whether Judge Greenberg’s recusal
should have been required because
objectively speaking, “the probability of
actual bias on the part of the judge is
too high to be constitutionally
tolerable.” Withrow, at 35.
3. The trial court judge in this
matter, Hon. Susan Greenberg, was
elected as Superior Court Judge in San
Mateo County in June 2014, just a few
months prior to being assigned this
case. During her campaign for Superior
Court Judge, public records indicate
that Judge Greenberg accepted
campaign contributions. They indicate
that she received $2,000 in campaign
contributions from Joseph Crawford,
Esq. and his law firm Hanson Crawford
Crumm. Petitioner’s Appendix, A8-A9.
Mr. Crawford and the Crawford firm

13

were the lead attorneys representing
the Respondent, and represented her
through the entirety of the pre-trial and
trial proceedings in this matter.
Public records show that Judge
Greenberg received these campaign
contributions from the Crawford
attorneys on April 10, 2014 and that she
was assigned this case in late August
2014. Id. She then conducted the first
mandatory status conference on
September 5, 2014 with the parties and
the Respondent’s attorneys, including
the Crawford firm. She should have
recused herself at that time because
California Code of Civil Procedure §
170.1(a)(9)(A) requires judges to recuse
themselves where they accept more
than $1500 from lawyers or parties
before them. She also could have made
lawful disclosure of the Crawford firm’s

14

significant campaign contributions at
that time as she was required to do by
California Code of Civil Procedure §
170.1(a)(9)(C). However, Judge
Greenberg ignored the law and did not
recuse herself and made no disclosure
whatsoever for over a year afterward.
Judge Greenberg could also have
recused herself or issued a minute order
making the campaign contribution
disclosure in the days and weeks that
followed. She did not.
In fact, at no time during the
assignment of the case to her, or at the
first status conference with the parties,
or at the numerous pre-trial
appearances that followed over the next
13 months where she heard and decided
litigated issues, did Judge Greenberg
disclose the fact that she had received
$2500 in campaign contributions from

15

Respondent’s lead attorneys. She
continued to sit on the case. She also did
not make any § 170.1 disclosure prior to
opening statements at trial in
September 2015, the last possible time
at which, under the statute, the
Appellant could have made a California
Code of Civil Procedure § 170.6
peremptory challenge. Appendix F,
A123.
Throughout this period of time
where required disclosure was not being
made, Judge Greenberg also repeatedly
denied Appellant attorneys’ fees. She
also excluded all of Appellant’s
witnesses while allowing all of
Respondent’s, and refused to enforce the
subpoena for the custody evaluators
source records, thus depriving Appellant
of meaningful cross-examination.

16

Contemporaneous with Judge
Greenberg’s ongoing failure to disclose
the campaign contributions from the
Crawford firm, she was also assigned to
another marriage dissolution
proceeding, Marriage of Stupp &
Schilders, 216 Cal.App. Unpub.LEXIS
8136. In the Stupp case, she also
accepted campaign contributions from
only one party’s attorneys that she also
failed to disclose to the other party in
compliance with California law. In the
Stupp case, both parties were
represented by experienced family law
attorneys admitted to the California
bar. Petitioner was proceeding pro se,
as he does here.
Judge Greenberg eventually
recused herself from the Stupp case
after the attorneys who had not donated

17

to her campaign for Superior Court
Judge objected to her failure to disclose
the campaign contributions from
opposing counsel.
Trial commenced in this case on
September 28, 2015, just over 13
months after Judge Greenberg was
assigned to it. The trial spanned 9
months and took approximately 15
days. At no time during this period did
Judge Greenberg recuse herself as she
had done in the Stupp case.
Judge Greenberg bifurcated trial
such that custody was tried first.
Immediately prior to the
commencement of the custody phase of
trial Judge Greenberg presided over
extensive settlement discussions
between Petitioner and the Crawford
firm. At no time during these
discussions did she disclose the

18

campaign contributions from the
Crawford firm. She continued to
improperly sit on the case and withhold
the campaign contribution disclosure
through opening statements and
through days and days of trial from late
September 2015 until late October 2015.
When Judge Greenberg finally
disclosed the campaign contributions
from the Crawford firm in the last days
of the custody trial, she again did not
follow the law regarding required
disclosure. She made an incomplete and
inaccurate disclosure and she never
fully corrected her disclosure as
required by law in a minute order or on
the record in open court. Petitioner’s
Appendix A, A7-A8.
Judge Greenberg did make
certain corrections to her late October

19

2015 campaign contribution disclosure
when she struck Petitioner’s 170.3
disqualification motion. However, these
corrections still did not bring her
disclosure into compliance with
California law or the judicial canons,
and nothing she could have done would
have cured the fact that she accepted
campaign contributions that required
her recusal in the first instance.
4. Throughout this period of time
where Judge Greenberg was not making
the required campaign contribution
disclosure, she also repeatedly denied
Petitioner’s requests attorneys’ fees that
would allow him to hire an experienced
family law attorney. Judge Greenberg
also excluded almost all of Petitioner’s
witnesses, while allowing all of
Respondent’s, and refused to enforce

20

Petitioner’s subpoena for the custody
evaluator’s source records and
documents, thus depriving him of the
right to meaningful cross-examination.
On August 3, 2015 Judge
Greenberg heard Petitioner’s motion to
exclude the custody evaluator’s (Dr.
Press) testimony and report. Petitioner
wanted to subpoena Dr. Press for a
deposition and the data she relied on to
prepare her report. However, Dr. Press
demanded $2,700 for travel and
“preparation” time. Petitioner could not
afford to depose Dr. Press and Judge
Greenberg denied his motion to exclude
her report at trial:
You had plenty of time to
come up with the money to
be able to pay her for her
testimony today. You
haven’t done so. I am not
going to continue this,
because I’m not going to

21
continue the trial. ... So
the request is denied.
Significant from a due process
standpoint, Petitioner also requested
attorneys’ fees and that his subpoena be
enforced to obtain the underlying source
documents from Dr. Press so that he
could have meaningful crossexamination. Judge Greenberg denied
all of his requests. As a result, when
Respondent used Dr. Press as an expert
witness at trial, Petitioner did not have
necessary materials to meaningfully
and effectively cross-examine Dr. Press.
REASONS FOR GRANTING THE
PETITION
This Court should grant
certiorari to reinforce for all Americans
the circumstances in which a judge’s
failure to follow the law relating to

22

disqualification and campaign
contribution disclosure should
necessitate recusal. Specifically, this
Court is asked: when a judge does not
follow the law with regard to these
matters, and deprives a litigant of a
state right, does this create a prima
facie case of “extreme facts” that
necessitate vacating her judgment to
ensure constitutional due process and
equal protection? This question is
vitally important to preserving the
“reputation for impartiality and
nonpartisanship”—and, ultimately, the
“legitimacy”—“of the Judicial Branch.”
Mistretta v. United States, 488 U.S. 361
407.
Judge Greenberg’s conclusion
that she could participate in this case
consistent with the requirements of due
process and equal protection cannot be

c'

23

squared with this Court’s repeated
admonition that, in order to foreclose
the possibility of actual judicial bias, a
judge “must avoid even the appearance
of bias.” Commonwealth Coatings Corp.
v. Cont’l Cas. Co., 393 U.S. 145, 150
(1968). Judge Greenberg’s insistence on
participating in this case conflicts with
this Court’s decisions specifying the
circumstances in which due process
requires recusal. It is also does deep
harm to the rule of law, since if a law
that is so clear can be so brazenly
disregarded by judge, how can any party
in a family court matter (or any other
matter) feel that a judge will impartially
apply the law without undue influence
and that the fair application of the law
is what governs justice?

24
I.

JUDGE GREENBERG’S
REFUSAL TO
RECUSE HERSELF
CONFLICTS
WITH THIS COURT’S
DUE PROCESS
AND EQUAL
PROTECTION
PRECEDENT

This Court has emphasized that a
“fair trial in a fair tribunal is a basic
requirement of due procees.” In re
Murchison, 349 U.S. 133, 136 (1955). A
“neutral and detached judge” is an
essential component of this due process
requirement. Ward v. Village of
Monroeville, 409 U.S. 47 (1972). Indeed,
“even if there is no showing of actual
bias” on the part of a judge, “due process
is denied by circumstances that create
the likelihood or appearance of bias”
because such a possibility of judicial
impropriety creates a constitutionally

25

unacceptable risk of actual
impropriety.” See Peters v. Kiff, 407
U.S. 493, 502 (1972).
Because Judge Greenberg
accepted the campaign contributions
from the Respondent’s lawyers, and
benefitted from them, she created an
unavoidable and constitutionally

■ i

impermissible appearance that she was
biased in favor of Respondent and her
attorneys. Her refusal to recuse herself
conflicts with this Court’s decisions
specifying the circumstances in which
due process requires recusal.
A.“[0]ur system of law has
always endeavored to prevent even the
probability of unfairness.” Murchison,
349 U.S. at 136. This “stringent rule,”
the Court has explained, “may
sometimes bar trial by judges who have
no actual bias and who would do their

1

26

very best to weigh the scales of justice
equally between contending parties.
But to perform its high function in the
best way justice must satisfy the
appearance of justice.” Id. (internal
quotation marks omitted). Accordingly,
in Murchison, the Court held that it
violated constitutional due process for a
judge who acted as a “one-man judgegrand jury” to charge a witness with
contempt in grand jury proceedings and
then convict the defendant of that
charge because, having been part of the
accusatory process that culminated in
the contempt charge, it was improbable
that the judge could be “wholly
disinterested” in the outcome of the
contempt proceedings. Id. at 137.
And, in Aetna Life Insurance Co.
v. Lavoie, 475 U.S. 813 (1986), the Court
held that it violated due process for a

27

state supreme court justice to
participate in the court’s review of a
verdict for bad-faith refusal to pay an
insurance claim because the justice was
at that time pursuing his own bad-faith
suit against an insurance company and
the legal principles established by the
supreme court’s decision had a direct
r

impact on the outcome of the justice’s
own case. Id. at 825. The Court
explained that it was “not required to
decide whether in fact Justice Embry
was influenced, but only whether sitting
on the case then before the Supreme
Court of Alabama would offer a possible
temptation to the average...judge
«

to...lead him not to hold the balance
nice, clear and true.” Id. (alterations in
original; internal quotation marks
omitted). Justice Embry’s ongoing
pursuit of monetary damages through a

-

28

cause of action identical to the one
pending before the state supreme court
offered just such a “temptation.”
Most significant, as described
above, is the recent Caperton case,
where Justice Kennedy directly
addressed the point that individual
states may adopt strict recusal laws: “It
is for this reason that States may choose
to ‘adopt recusal standards more
rigorous than due process requires.’”
Caperton, at 876.(Kennedy, J., citing
Republican Party of Minn. v. White, 536
U.S. 765, 793 (2002)).
B. While Justice Kennedy’s
holding in Caperton was based on the
extent of the campaign contributions
and the fact that they were used to
achieve a particular result, here we
have different campaign contribution
issue that picks up where his

28

cause of action identical to the one
pending before the state supreme court
offered just such a “temptation.”
Most significant, as described
above, is the recent Caperton case,
where Justice Kennedy directly
addressed the point that individual
states may adopt strict recusal laws: “It
is for this reason that States may choose
to ‘adopt recusal standards more
rigorous than due process requires.”’
Caperton, at 876.(Kennedy, J., citing
Republican Party of Minn. v. White, 536
U.S. 765, 793 (2002)).
B. While Justice Kennedy’s
holding in Caperton was based on the
extent of the campaign contributions
and the fact that they were used to
achieve a particular result, here we
have different campaign contribution
issue that picks up where his

29

opinion leaves off: to wit, a judge that
declines to follow the law of a more
rigorous State recusal and campaign
disclosure statute. Petitioner submits
that this is a different, but similarly
clear-cut case of extreme facts that
necessitate review and the granting of
certiorari on due process grounds.
C. A party’s right to Equal
Protection of the laws under the United
States Constitution is regarded as the
twin of the procedural due process right
and Justice Ginsberg has noted that
these principles often converge. M.L.B.
v. S.L.J., 519 U.S. 102, 105 (1996). The
standard of review in state law cases
involving child custody was elucidated
by this Court in Little v. Streater, 451
U.S. 1 (1981). Building on the Matthews
v. Eldridge and Boddie v. Connecticut
decisions, the Supreme Court’s analysis

30

first considered whether due process
involving custody should receiving a
heightened level of scrutiny since it
concerns such a fundamental human
right. See Matthews v. Eldridge, 424
U.S. 319 (1976); Boddie v. Connecticut,
401 U.S. 371 (1971). See also M.L.B. v.
S.L.J., 519 U.S. 102 (1996) (Ginsberg,
J., “the interest of parents in their
relationship with their children is
sufficiently fundamental to come within
the finite class of liberty interests
protected by the Fourteenth
Amendment”). This Court was
unanimous in finding that it should.
Little, 452 U.S. at 5-12.
The Court next applied the
second factor: the likelihood the case
would not be fairly adjudged given the
lower court’s application of the
procedures involved. The Court found

V

31

the risk “not inconsiderable.” Id. at 1316. Finally, the Court applied the third
factor: whether the State of Connecticut
would be unduly burdened by requiring
that fairness be enforced, and found
that it would not, even though it would
have to bear the cost of a diagnostic
paternity test. Id.
D. Here, it is undisputed that the
core issue of Petitioner’s case is custody
and involves his relationship with his
children. This satisfies the first part of
the Supreme Court’s test because this is
one of the most compelling private
interests. Second, for the State of
California to have a statute that
requires judicial officers to disclose
campaign contributions in both its civil
procedure and judicial canons, and then
not enforce it when it deprives a party of
the fair exercise of a state right to

32

peremptory challenge, would be certain
to render the peremptory challenge
right null and void in many cases. This
situation would also be virtually certain
to create a high risk that other judges
would not bother to follow the law,
would not disclose campaign
contributions in timely fashion (if at
all), and thus would result in many
litigants being denied a fair trial by an
impartial, neutral adjudicator, in
addition to being denied the fair
exercise of their peremptory right. This
meets the Appellant’s burden on the
second factor. Finally, as to the third
factor, the cost to the State of California
would be negligible, since disclosure of
campaign contributions by the judicial
officer costs nothing except the Superior
Court Judge’s time and attention.

33

There is no doubt that Judge
Greenberg accepted campaign
contributions and did not recuse herself
as the law directed, and also disclose
them as prescribed by statute until after
Appellant’s window for the fair exercise
of his peremptory challenge right had
closed. If this Court were to allow this
to stand, then there is serious risk to
the perceived impartiality of the judicial
system.

II.

THE QUESTION
PRESENTED IS
EXCEPTIONALLY
IMPORTANT TO THE
PRESERVATION OF
PUBLIC CONFIDENCE
IN STATE COURT
SYSTEMS ACROSS THE
NATION

Although this Court has
repeatedly recognized that “[tjrial before

34

‘an unbiased judge’ is essential to due
process” (<Johnson v. Mississippi, 403
U.S. 212, 216 (1971)(per curiam)), lower
courts, including the lower courts in this
case, one of which is the highest court in
the largest of our 50 states, have
reached conflicting conclusions
regarding the federal constitutional
standard governing recusal
determinations—a conflict that extends
to the statutory recusal and campaign
contribution disclosure scheme in this
case.
This case raises a recurring issue
of far-reaching national importance.
Thirty-nine States elect at least some of
their judges, and the amount of money
spent on state judicial elections by
candidates and third-party interest
groups, including the lawyers who will
practice before the elected judges, is

35

steadily increasing. Indeed, between
1999 and 2006, candidates seeking seats
on state courts raised more than $157
million which is nearly double the
amount raised by candidates in the four
previous election cycles. James Sample
et al;, The New Politics of Judicial
Elections 15 (2006).
As the amount of contributions
and independent expenditures in state
judicial races increases, so will the
number of cases in which a party or
attorney has donated significant sums
of money to a judge, and so, too, will
requests for recusal of those judges. But
what if the state judges do not follow
the statutes that are designed to ensure
that parties are before a neutral and
impartial adjudicator? This is not
merely a state question, but a
constitutional one. If judges are

36

permitted to disregard the clear law or
apply the same law in the same
situation in a different way because
some parties are unrepresented, the
rule of law will quickly deteriorate and
confidence in the judiciary will decline
precipitously.

III.

VACATING JUDGMENT
AND REMAND IS
APPROPRIATE HERE
WHERE THE LOWER
COURT DECISIONS SO
CLEARLY ARE AT
ODDS WITH THIS
COURT’S DUE
PROCESS AND EQUAL
PROTECTION
PRECEDENT

In this Court’s recent line of cases
where it granted certiorari, vacated the
judgment and remanded the case to the
individual State’s highest court, the

37

procedure has successfully induced that
court to consider and rule on the
constitutional due process issues at play
where a judge has been accused of not
being impartial. Rippo v. Baker, 580
U.S. _ (2017) Slip.Op. (16-6316); Rogers
Lacaze v. Louisiana, 580 U.S.__, (2017)
Slip.Op. (16-1125).
This case occupies a procedural
posture where the lower courts refused
to address the Constitutional questions
that Petitioner timely raised, and never
addressed the fact that the deprivation
of his state right was never appealable
before or during trial using any appeal
mechanism. For reasons of judicial
economy and efficiency, this Court
should give the California Supreme
Court the opportunity to consider and
rule on these issues, and vacate
judgment and remand accordingly.

}
38
CONCLUSION
For the foregoing reasons, the
petition for writ of certiorari should be
granted.
Respectfully submitted,
Jeremiah F. Manning
Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

September 24, 2019

